   Office of Inspector General
         Audit Report


  ENHANCED MONITORING TOOLS ARE
NEEDED TO IMPROVE NHTSA’S OVERSIGHT
     OF HIGHWAY SAFETY GRANTS
    National Highway Traffic Safety Administration


            Report Number: MH-2014-088
            Date Issued: August 21, 2014
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Enhanced Monitoring Tools Are                                            Date:    August 21, 2014
           Needed To Improve NHTSA’s Oversight of
           Highway Safety Grants
           National Highway Traffic Safety Administration
           Report Number MH-2014-088

  From:    Thomas E. Yatsco                                                              Reply to
                                                                                         Attn. of:   JA-30
           Assistant Inspector General for
             Surface Transportation Audits

    To:    National Highway Traffic Safety Administrator

           Nearly 34,000 motor vehicle fatalities occurred in 2012, an increase of 3.3 percent
           from the previous year. To help reduce fatalities, injuries, and economic losses
           resulting from motor vehicle crashes, the National Highway Traffic Safety
           Administration (NHTSA) awards formula and incentive grants to States to conduct
           a wide range of highway safety programs. The Moving Ahead for Progress in the
           21st Century Act (MAP-21) authorized about $1.3 billion to fund these grants for
           fiscal years 2013 and 2014. States can distribute highway safety grant and penalty
           transfer funds 1 to a wide network of sub-grantees nationwide, including local law
           enforcement agencies, municipalities, universities, health care organizations, and
           other local institutions. NHTSA’s regional offices play an important role in
           monitoring States’ and sub-grantees’ use of grant funds, such as conducting
           triennial management reviews and ongoing oversight.

           Our objective for this self-initiated audit was to evaluate NHTSA’s oversight of
           Federal highway safety grants provided to the States. Specifically, we determined
           whether NHTSA (1) ensured that grantees met key Federal requirements and
           (2) effectively tracked grantee deficiencies and corrective actions.

           To conduct our audit work, we focused on one NHTSA regional office, Region 5,
           which we randomly selected from NHTSA’s 10 regional offices (see exhibit B).

           1
             Under Title 23 United States Code (U.S.C.) Parts 154 and 164, States that fail to pass open container and repeat
           offender laws are subject to transferring 2.5 percent of Federal-aid highway construction funds to the highway safety
           program for alcohol-impaired driving countermeasures, enforcement of laws prohibiting impaired driving. In this
           report, the term “grant funds” includes these penalty transfer funds.
                                                                                  2


Region 5 encompasses the States of Indiana, Illinois, Michigan, Minnesota, Ohio,
and Wisconsin. Where appropriate, we identified issues that applied across the
Agency, including guidance and monitoring mechanisms. We evaluated a
statistical sample of 66 grant expenditures (totaling $5.7 million) drawn from
4,113 grants (totaling $178 million) in Region 5 from fiscal years 2011 and 2012.
We analyzed grantees’ expenditures of grant funds from fiscal years 2006 through
2012, assessed NHTSA’s guidance for monitoring grants, and evaluated NHTSA’s
oversight of findings and corrective actions resulting from management reviews.
Exhibit A provides more detail on our scope and methodology. We conducted our
work in accordance with generally accepted Government auditing standards.

RESULTS IN BRIEF
NHTSA grantees in Region 5 generally met key Federal grant requirements, but
the Agency lacks strategies for addressing delayed expenditures of grant funds and
targeting higher risk grantees. Our sample review of 66 grant expenditures
(totaling $5.7 million) by Region 5 States and their sub-grantees for fiscal years
2011 to 2012 did not identify significant lapses in the Region’s oversight. Each
grantee transaction we reviewed generally met funding parameters of the grant
programs, was charged to appropriate grant funding codes, and was supported by
sufficient documentation. However, NHTSA lacks an overall strategy for
addressing persistent delays in grantees’ use of grant funds that are present across
all regional offices and a comprehensive risk assessment model for targeting
oversight to higher risk grantees nationwide. For fiscal years 2006 through 2012,
we identified approximately $539 million in unexpended funds across all regional
offices. For Region 5 alone, the amount of unexpended funds was nearly
$67 million, or about 12 percent of the national total. Unused safety grant funds
represent potential lost or delayed opportunities to fund programs that reduce
fatalities, injuries, and property damage. In addition, NHTSA does not require its
regional offices to conduct comprehensive risk assessments, which would serve to
direct oversight resources to higher risk grantees and programs. For example,
Region 5 does not conduct risk assessments as part of the grant monitoring plans it
develops for each State. Without risk assessments, NHTSA lacks a key tool for
directing limited oversight resources to higher risk programs and grantees.

Although all of NHTSA’s regional offices conduct triennial management reviews
of grantees, the Agency does not sufficiently track grantee deficiencies identified
in these reviews, or have sufficient tools to identify and mitigate systemic
nationwide issues. From fiscal years 2010 through 2012, NHTSA’s Region 5
officials conducted congressionally mandated triennial management reviews of all
six of its State grant programs. For example, in Region 5, officials closed 7 of
9 findings and 16 of 25 non-binding recommendations made in the triennial
management reviews. The deficiencies ranged from improper use of funds to lack
                                                                                                                       3


of monitoring plans. However, Region 5 officials could not provide sufficient
documentation of States’ actions to justify closing three of the findings and
recommendations, and they also lacked documentation of management approval.
For instance, when we asked about a closed non-binding recommendation
intended to improve the timeliness of Ohio’s expenditure of grant funds, a Region
5 official acknowledged that the State had not made sufficient progress to justify
closing the recommendation. NHTSA’s guidance and procedures, which apply to
all regional offices, do not require documentation and management approval for
key actions related to the disposition of grantee deficiencies; however, Standards
for Internal Control in the Federal Government 2 state that such significant events
should be clearly documented. Finally, NHTSA still lacks a standardized
mechanism for tracking each of the ten regional offices’ disposition of grantee
deficiencies—a recommendation we made in 2008. 3 This tool would allow the
Agency to identify and mitigate systemic issues on a national level. According to
NHTSA officials, the Agency is planning to develop a database that will track its
grant oversight findings by 2015.

We are making recommendations to improve NHTSA’s oversight of highway
safety grants.

BACKGROUND
NHTSA awards grant funding to States to implement several highway safety
programs. Figure 1 details the major types of grants awarded in fiscal year 2012.

Figure 1. Grant Funding for Highway Safety Programs, Fiscal
Year 2012.

                                                         Other
                                                                  Alcohol-
                                                       Programs
                                                                  Impaired
                                                          9%
                                                                   Driving
                                                                  Program
                                                                    18%
                                             Formula
                                              Grant
                                             Funding
                                               30%                Highway
                                                                  Transfer
                                                                  Funding
                                                                    43%




Source: NHTSA

2
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1) state that management should
comprehensively identify risks and consider significant internal and external factors at both the entity-wide and activity
level. Risk identification methods include qualitative and quantitative ranking activities, forecasting and strategic
planning, and consideration of findings from audits and other assessments.
3
  Best Practices For Improving Oversight of State Highway Safety Programs (OIG Report Number MH-2008-046),
Mar. 25, 2008. OIG reports are available on our Web site at http://www.oig.dot.gov.
                                                                                                        4


Prior Office of Inspector General (OIG) audits and investigations and General
Accountability Office (GAO) audits identified weaknesses in NHTSA’s oversight
of highway safety grants. In February 2013, we reported that Mississippi did not
properly administer alcohol-impaired driving transfer funds and that NHTSA
lacked agency guidance on how and when to designate States as high risk. 4 In
2008, in response to OIG 5 and GAO 6 audits, NHTSA agreed to enhance its
reviews of grantee performance and establish a nationwide system for tracking
grantee deficiencies and corrective actions. Furthermore, in Illinois and Texas,
OIG investigations resulted in indictments of grantee officials in 2012 and 2013
for making illegal reimbursement claims and misusing administrative time.

In September 2013, NHTSA reorganized its grant oversight function and is
reviewing its Headquarters and Regional Office grant oversight operations. For
example, NHTSA established a new Headquarters Office of Grants Management
and Operations. According to NHTSA officials, this new organization is updating
policies, procedures, and guidance for grant oversight, including monitoring
States’ performance metrics and compliance with grant requirements.

REGION 5 GRANTEES GENERALLY MET REQUIREMENTS BUT
AGENCYWIDE ISSUES EXIST WITH EXPENDITURE DELAYS
AND TARGETED OVERSIGHT
Region 5 grantees generally spent the grant funds we reviewed in accordance with
key Federal requirements. However, across all regional offices, NHTSA lacks an
overall strategy for addressing persistent delays in grantees’ use of grant funds and
comprehensive risk assessment guidance for targeting oversight to higher risk
grantees.

Region 5 Grantees Generally Met Key Federal Requirements
We verified that NHTSA Region 5 conducted triennial management reviews of
each of its six States, which are designed to evaluate whether grantees comply
with Federal grant requirements. In addition to these formal reviews, we
confirmed that Region 5 monitored States’ administration of the highway safety
program through periodic desk reviews, project file reviews, and on-site visits. For
example, we verified NHTSA’s monitoring activities for grants to Minnesota by
reviewing NHTSA’s oversight procedures, analyzing its monitoring plan,

4
  NHTSA’s Oversight of Mississippi’s Management of Federal Highway Safety Grants Needs Strengthening (OIG
Report Number MH-2013-040), Feb. 6, 2013. NHTSA requested this audit based on the findings from a NHTSA
management review.
5
  Best Practices For Improving Oversight of State Highway Safety Programs (OIG Report Number MH-2008-046),
Mar. 25, 2008.
6
  GAO Report Number GAO-08-788, NHTSA’s Improved Oversight Could Identify Opportunities to Strengthen
Management and Safety in Some States, July 14, 2008.
                                                                                                                       5


examining oversight files, and following-up on issues addressed during NHTSA’s
previous site visit to Minnesota.

To assess Region 5 grantees’ compliance with Federal grant requirements, we
reviewed a sample of 66 grant expenditures (totaling $5.7 million) out of a
universe of 4,113 grants (totaling $178 million) under Region 5’s grants
agreements for fiscal years 2011 to 2012. Overall, we did not identify significant
lapses in Region 5’s oversight, as grantees generally spent highway safety grant
funds in accordance with grant funding criteria 7 and key Federal cost principles. 8

Specifically, our review 9 of Region 5 grantees determined that each transaction
(1) met funding parameters of the grant programs, (2) were charged to appropriate
grant funding codes, and (3) were supported by sufficient documentation. For
example, we verified two fiscal year 2012 expenditures by Indiana University’s
Automotive Safety Program, for $130,996 and $98,950. These two expenditures
were made under an $850,000 occupant protection program grant agreement
which provided funds for child passenger safety programs. We also confirmed that
States met Federal grant administrative requirements. 10 For example, we verified
that grantees complied with requirements for indirect costs, such as rent and motor
pools, which were charged to Federal grants.

NHTSA Lacks an Overall Strategy for Addressing Grantee Delays in
Using Grant Funds
As of March 2013, the six States in Region 5 had not expended nearly $67 million
in highway safety grant funding from fiscal years 2006 through 2012. All States in
Region 5 had unexpended grant fund balances, but Minnesota and Ohio had the
highest amounts—$25.6 million and $16.2 million, respectively (see table 1).
Unused safety grant funds represent delayed or lost opportunities to fund programs
that help reduce fatalities, injuries, and property damage.

The unexpended grant funds in Region 5 were distributed among various NHTSA
grant programs including the alcohol-impaired driving grant program which
accounted for over 37 percent of the outstanding grant balances nationwide,
highway transfer funding which accounted for nearly 24 percent, and formula
grant funding which accounted for about 14 percent.


7
  Title 23 U.S.C. establishes Federal criteria for grant program funding.
8
  Office of Management and Budget (OMB) Circular A-87, “Cost Principles for State, Local, and Indian Tribal
Governments,” May 2014.
9
  Our tests of these expenditures were limited to confirming documentation maintained at the State oversight offices
and selected sub-grantee offices. We did not trace grant expenditures to original sources, such as traffic citations, that
would allow us to make a conclusion regarding the full eligibility of specific paid activities.
10
   Title 49 Code of Federal Regulations (CFR) Section 18 provides Uniform Administrative Requirements for Grants
and Cooperative Agreements to State and Local Governments.
                                                                                                                     6


Table 1. Unexpended Grant Funds From States in NHTSA’s
Region 5, Fiscal Years 2006-2012
                                   Amount of Unused           Percent Unused Grant
Region 5 State                         Grant Funds               Funds in Region 5
Minnesota                               $25.6 million                         38.4
Ohio                                    $16.2 million                         24.3
Michigan                                 $8.3 million                         12.5
Indiana                                  $6.8 million                         10.2
Wisconsin                                $6.0 million                          9.1
Illinois                                 $3.7 million                          5.5
Total                                  $66.6 million                         100.0
Source: NHTSA data

Unexpended funds are not unique to Region 5. Nationwide, we identified
$538.8 million in unexpended grant balances ranging from about $0.9 million in
fiscal year 2006 to about $331 million in 2012. 11 The amount of unexpended funds
varied among NHTSA’s 10 Regions (see table 2).

Table 2. Unexpended Grant Funds by NHTSA Region, Fiscal
Years 2006-2012
NHTSA Regional                     Amount of Unused                 Percent of Total
Office                                 Grant Funds              Unused Grant Funds
Region 3                                  $110.1 million                             20.4
Region 6                                   $66.7 million                             12.4
Region 5                                   $66.6 million                             12.4
Region 4                                   $51.1 million                               9.5
Region 10                                  $50.4 million                               9.3
Region 9                                   $48.3 million                               9.0
Region 2                                   $48.0 million                               8.9
Region 7                                   $38.5 million                               7.1
Region 8                                   $31.1 million                               5.8
Region 1                                   $28.0 million                               5.2
Total                                    $538.8 million                             100.0

Source: NHTSA data

Most of the obligated grant funding we identified remains available for
expenditure, according to NHTSA grant officials. Funds allocated to States remain
available for obligation in those States for a period of 3 years after the last day of
the fiscal year for which the funds are authorized. 12 States have an additional

11
     Vermont and the Virgin Islands do not have unexpended grant fund balances for fiscal years 2006 through 2012.
12
     23 U.S.C Chapter 1, Section 118(b).
                                                                                 7


5 years beyond the 4-year obligation period to spend the obligated funds. 13
NHTSA Region 5 officials we spoke to expressed frustration with the States’ slow
use of grant program funds and explained that States may have difficulty using the
funding because of staffing limitations and workload issues.

We found that Region 5 has taken some actions to identify and address issues with
unexpended grant funds. For example, Region 5’s management reviews
recommended that four of the six States liquidate unexpended fund balances. In
addition, Region 5’s Regional Action Plan included strategies for conducting
reviews and providing technical assistance to the States. However, Region 5 lacks
an overall strategy to systematically address States’ persistent delays in using
grant funds. For example, Region 5 has not developed individual funding
liquidation plans for each State with specific targets and mitigation strategies.

NHTSA has not provided any of its regional offices with sufficient guidance for
monitoring States’ progress in reducing unexpended grant fund balances.
According to NHTSA officials, the Agency has begun taking action to improve
grant oversight and to address the grant liquidation issue. In September 2013,
NHTSA established a new Headquarters Office of Grants Management and
Operations. According to NHTSA officials, the new office plans to update grant
oversight guidance on monitoring States’ use of grant funds and work with
NHTSA’s Finance Office to conduct sample tests of States’ unexpended grant
balances by 2015.

NHTSA Lacks a Comprehensive Approach To Target Higher Risk
Grant Programs and Grantees
NHTSA Region 5’s grant monitoring plans for each State do not include risk
assessments to help target oversight to higher risk grantees, even though Standards
for Internal Control in the Federal Government emphasize the need to
comprehensively identify risks. NHTSA has broad guidance for all 10 regional
offices to follow in developing the monitoring plans, but the guidance does not
include specific instructions on conducting comprehensive risk assessments.
NHTSA Region 5 officials stated that they used their own instincts to develop the
grant monitoring plans and were unclear on how to perform their oversight roles.

Region 5 officials stated that they need more precise guidance and training to
identify high-risk grantees. NHTSA Headquarters does not require any of its
regional offices to perform risk assessments or provide guidance to the regions on
how to incorporate risk-based analysis into their grant monitoring plans. Without
comprehensive risk assessment guidance that is applied across every region,


13
     31 U.S.C. 1552(a); 31 U.S.C. 1553(a).
                                                                                  8


NHTSA lacks an important tool for directing its oversight resources to higher risk
grant programs and State grantees.

Other Department of Transportation agencies, such as the Federal Motor Carrier
Safety Administration (FMCSA), conduct annual risk assessments of their grant
programs. According to FMCSA officials, they use established criteria to assess
and classify grantee risks, and develop oversight and monitoring plans based on
the risk assessments. This practice is designed to help FMCSA officials identify
grantees for additional monitoring, on-site visits, and risk mitigation.

NHTSA DOES NOT SUFFICIENTLY TRACK GRANTEE
DEFICIENCIES TO IDENTIFY AND MITIGATE SYSTEMIC ISSUES
NHTSA Region 5 conducts triennial management reviews to identify grantee
deficiencies and issues requirements and recommendations for corrective actions.
However, Region 5 does not maintain sufficient documentation of States’ actions
to support closing the management review findings, which limits the effectiveness
of the reviews. Additionally, NHTSA Headquarters lacks a standardized
mechanism for tracking all 10 regional offices’ disposition of grantee deficiencies,
which would allow the Agency to identify and mitigate systemic issues on a
national level.

NHTSA Lacks Clear Guidance for Documentation and Management
Review of Actions To Close Grantee Deficiencies
From fiscal years 2010 through 2012, NHTSA’s Region 5 officials conducted
congressionally mandated triennial management reviews of all six of its State
grant programs. These management reviews are intended to assess a State’s
organization and staffing, financial management, and program management
practices in administering the highway safety program. Based on the results of
these reviews, the NHTSA review team works with State officials to develop
corrective action plans. NHTSA differentiates between “required actions” (to
address noncompliance with statutes, regulations, rules, policies, and guidelines)
and non-binding “recommended actions” (to improve the State’s highway safety
program by implementing best practices).

Region 5’s reviews identified nine findings resulting in required actions. The
deficiencies identified ranged from improper use of transfer funds and program
income to lack of monitoring plans. Three of the nine findings related to
noncompliance with local benefit requirements, which stipulate that at least
40 percent of Federal funds apportioned to the State be expended by local
grantees. Region 5 also made 25 non-binding recommendations to the States. For
example, Region 5 made non-binding recommendations to four States to liquidate
                                                                                                                  9


their unexpended grant fund balances. (See exhibit C for a summary of Region 5’s
findings and recommendations).

As of August 2013, Region 5 closed 7 of the 9 findings with required actions 14; it
also closed 16 of 25 non-binding recommended actions. However, Region 5
officials did not maintain sufficient documentation, such as specific evidence that
States took action to implement the recommended actions, to support States’
actions to justify closing three of the findings. For a non-binding recommendation
intended to improve the timeliness of Ohio’s expenditure of grant funds, a
NHTSA official acknowledged that the State had not provided sufficient
documentation to justify closing the recommendation. Region 5 officials also
lacked sufficient documentation of management’s approval for closing actions.

NHTSA’s guidance and procedures for all regional offices do not require
documentation and management approval for key actions related to the disposition
of grantee deficiencies. However, Standards for Internal Control in the Federal
Government state that such significant events should be clearly documented.
NHTSA officials acknowledged that the Agency could improve its controls for
management review of actions to close deficiencies, and stated that more precise
guidance and training is needed for tracking and resolving deficiencies.

NHTSA Lacks a Standardized Mechanism for Monitoring the Status of
Grantee Deficiencies Nationwide
NHTSA Headquarters lacks a standardized mechanism for tracking the disposition
of grantee deficiencies across all regional offices, which would allow the Agency
to identify and mitigate systemic issues on a national level. In 2008, we
recommended that NHTSA implement an electronic tracking system for
monitoring the disposition of oversight recommendations to the States in order to
efficiently share finding information, follow up on unresolved recommendations,
and enhance quality control. In response to our recommendation, NHTSA agreed
to implement a spreadsheet tool to track the deficiencies agencywide.

During our current audit, we identified weaknesses in NHTSA’s implementation
of the spreadsheet. Specifically, NHTSA Headquarters’ spreadsheet is not directly
linked to regional offices for real-time updates, and it lacks features to uniformly
identify, classify, compare, track, mitigate, and report on systemic or recurrent
grantee deficiencies. According to NHTSA officials, the Agency is planning to
develop a database by 2015, which would track all of its grant oversight findings
including State audits, management reviews, project reviews, and other oversight
findings. According to these officials, the database will also allow users to track


14
  Two of the nine deficiencies remain open—one is open pending NHTSA’s on-site review, and the other pending
confirmation of an inventory sample. See exhibit C for information on the status of each finding and recommendation.
                                                                                10


NHTSA’s findings until resolution; conduct queries and analyses to determine
State, regional, and national trends; and produce management reports.

CONCLUSION
Effective stewardship and oversight of Federal grant funds is critical to improving
the safety of our Nation’s highways. Region 5’s triennial management reviews and
other monitoring efforts have encouraged grantees to comply with key Federal
requirements and spend highway safety grant funds for appropriate purposes.
However, persistent problems with delayed use of grant funds, lack of risk
assessments, and insufficient guidance for closing recommendations point to
opportunities for improvement in Region 5 that would also apply to other regional
offices. Specifically, NHTSA’s Office of Grants Management and Operations can
provide enhanced oversight and guidance to all of its regional offices. Improved
grant guidance and monitoring tools would provide greater assurance that States
and sub-grantees are using Federal resources in a timely and appropriate manner.

RECOMMENDATIONS
We recommend that NHTSA:

1. Develop and implement a national strategy for addressing delays in States’ use
   of highway safety grant funds. This strategy should, at a minimum, promote
   more timely expenditures and use performance measures to monitor States’
   progress.

2. Revise guidance for grant monitoring plans to include a risk assessment
   approach to help regions identify and focus on the highest risk grant programs
   and grantees.

3. Revise grant oversight policies and procedures to require documentation of
   State corrective actions and management approval for closing the actions.

4. Develop and implement an electronic database, with guidance to regional
   offices, for identifying and monitoring recurrent or systemic grant oversight
   findings.
                                                                                 11


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to NHTSA on June 30, 2014. NHTSA provided
technical comments on July 14, 2014, and a formal response on August 4, 2014,
which is included in the appendix to this report. NHTSA stated that it generally
concurs with all four of our recommendations. However, NHTSA did not provide
specific information on all of its planned actions or completion dates as requested
in our draft report. Until NHTSA provides further information on its actions and
completion timeframes, we will consider all four recommendations open and
unresolved. Specifically:

For recommendation 1, NHTSA responded that it will evaluate its programmatic
monitoring to determine whether additional measures of effectiveness would
benefit its oversight to better ensure the timely and effective use of funds.
However, NHTSA did not provide specific information to describe the additional
monitoring or alternative performance measures it plans to implement or a target
date for completion.

For recommendation 2, NHTSA responded that it will continue to update its
monitoring policy to ensure its existing risk assessment approaches are sufficiently
explicit, including developing training on risk assessment. However, NHTSA did
not provide a target date for completion of the monitoring policy update and risk
assessment training.

For recommendation 3, NHTSA responded that procedural improvements to track
findings and management considerations as well as documenting actions taken to
close out such findings are already underway. However, NHTSA did not provide
specific information on the degree to which its planned actions would include
policy revisions in addition to procedural improvements or state how the revised
policies and procedures would address management approval of closing actions.

For recommendation 4, NHTSA responded that it would be finalizing the selection
of a software program for identifying and monitoring grant findings but did not
provide specific information as to whether its target action date included
implementation of the software program.

We incorporated NHTSA’s technical comments into our final report, with one
exception. NHTSA disclosed that its Region 5 office closed two open findings
with required actions from Indiana and Wisconsin that we noted in our draft
report. However, NHTSA reported these actions after we concluded our audit
work.
                                                                            12


ACTIONS REQUIRED
We consider recommendations 1 through 4 open and unresolved and, in
accordance with DOT Order 8000.1C, request that FHWA provide, within 30 days
of this report, the additional information requested above.

We appreciate the courtesies and cooperation of NHTSA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-5630 or Kerry R. Barras, Program Director, at (817) 978-3318.

                                      #
cc:   NHTSA Audit Liaison, NPO–310
      DOT Audit Liaison, M–1
                                                                                                            13



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from January 2013 through June 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

Our objective for this audit was to assess NHTSA’s oversight of Federal highway
safety grants provided to the States. Specifically, we determined whether
NHTSA’s oversight of State administered grant programs (1) ensured that grantees
met key Federal requirements and (2) effectively tracked grantee deficiencies and
corrective actions. We consulted with our statisticians to randomly select NHTSA
Region 5 from NHTSA’s 10 regional offices. Region 5 encompasses Indiana,
Illinois, Michigan, Minnesota, Ohio, and Wisconsin. Where appropriate, we
identified issues that applied across the Agency.

To assess whether NHTSA’s oversight of State grant programs ensured that
grantees met Federal requirements, we reviewed financial management controls
and electronic databases for administering Federal safety grants for States in
Region 5. In addition, our statisticians selected a three-stage statistical sample of
grant expenditures. Stage 1 was a sample of 3 out of 10 regions selected with
probability proportional to a weighted score comprised of a region’s number of
fatalities, number of States subject to transfer funding requirements, and the dollar
value of grant awards to the States in fiscal years 2011 and 2012. We reviewed
only one of the three regions selected in Stage 1 of our sample to limit the scope of
our work and to allow for timely completion of the audit. For Stage 2, we stratified
Region 5’s universe of 4,113 grants by 5 categories of grants (alcohol-impaired
driving repeat offender transfer funds, alcohol-impaired driving program, occupant
protection program, motorcycle safety program, and other programs) and selected
a total of 40 out of the 4,113 grants with probability proportional to the grant
amount awarded. Finally, for Stage 3 we stratified the universe by the 40 grants
from the Stage 2 sample and selected 2 grant expenditures from each grant (unless
there was only 1). We selected a total of 66 out of 171 grant expenditures with
probability proportional to the grant expenditure amount. Our Region 5 total grant
expenditure sample amount was $5.7 million out of a grant total of $178 million.

We tested this sample of grant expenditures for compliance with Federal grant
requirements. To perform our tests, we visited State highway safety offices in
Indiana, Illinois, Michigan, Minnesota, and Ohio 15 and verified claim

15
  Although we did not conduct a site visit to Wisconsin, we reviewed similar records for the sample of Wisconsin
grant expenditures at NHTSA’s Region 5 office in Chicago, IL.


Exhibit A. Scope and Methodology
                                                                                14


reimbursements. We traced sample transactions to supporting records, including
but not limited to budget and expenditure cost worksheets, law enforcement
agency expense report worksheets, overtime wage rates and fringe benefits, salary
allocation schedules, employee timesheets, certifications of work hours, records of
inventory for purchased equipment, agency claim vouchers, supporting invoices,
and accounting records to post expenditures to appropriate grant program funding
codes. We also interviewed NHTSA program officials at Headquarters and Region
5, and State officials in Indiana, Illinois, Michigan, Minnesota, and Ohio. We
reviewed the timeliness of grantees’ use of grant funds from fiscal years 2006
through 2012, for all 10 of NHTSA’s regional offices. We verified the amount of
unexpended grant fund balances for each State, excluding hazard elimination
funding managed by the Federal Highway Administration. Finally, we evaluated
NHTSA’s policies, procedures, processes, and guidance for monitoring grants and
providing oversight to States.

To assess whether NHTSA’s oversight of State grant programs effectively tracked
grantee deficiencies and corrective actions, we interviewed NHTSA Headquarters
and Region 5 officials and reviewed NHTSA’s policies, procedures and processes
for recording, tracking, and resolving findings. We reviewed triennial management
reviews for the six States in Region 5 and reviewed actions taken by NHTSA
officials to document, follow-up, and track noncompliant program practices. We
also confirmed the final disposition of these findings and corrective actions by
examining States’ electronic and manual records, following documentation and
management approval trails, and verifying that evidence existed that the
deficiencies were corrected.




Exhibit A. Scope and Methodology
                                     15



EXHIBIT B. NHTSA REGIONAL OFFICES




Source: NHTSA




Exhibit B. NHTS A Regional Offices
                                                                                                          16



EXHIBIT C. NHTSA REGION 5 MANAGEMENT REVIEW
REQUIRED ACTIONS AND RECOMMENDATIONS TO STATES
        Required or
State   Recommended       Findings/Recommendations                                               Status
IN      01. Required      Contracts lacked required certifications and assurances.               Open
MN      02. Required      Equipment inventory did not adhere to project management guidelines.   Closed
        03. Required      Did not comply with local benefit requirements.                        Closed
        04. Required      Did not comply with local benefit requirements.                        Closed
        05. Required      Unallowable use of program income for gift card purchases.             Closed
        06. Required      Unallowable use of Section 164 transfer funds.                         Closed
WI      07. Required      Lack of a monitoring plan.                                             Closed
        08. Required      Did not comply with local benefit requirements.                        Closed
        09. Required      Equipment inventory did not adhere to project management guidelines.   Open
IL      01. Recommended   Add delegation of authority official.                                  Closed
        02. Recommended   Hire full time Occupant Protection Coordinator.                        Closed
        03. Recommended   Expand Electronic Crash Reporting System.                              Open
        04. Recommended   Adopt Electronic Grant System.                                         Open
        05. Recommended   Ensure qualification for 40 percent local benefit.                     Closed
IN      06. Recommended   Fill Media Coordinator position.                                       Open
        07. Recommended   TSD work directly with TSRP.                                           Closed
        08. Recommended   TSD work reviewed by financial accountant.                             Closed
        09. Recommended   Liquidate unexpended fund balances.                                    Open
        10. Recommended   Monitor gift cards distributed as incentives.                          Closed
MN      11. Recommended   OTS should utilize NHTSA training for State staff.                     Closed
        12. Recommended   Liquidate unexpended fund balances.                                    Open
        13. Recommended   OTS and MNDOT develop projects to liquidate unexpended balances.       Open
        14. Recommended   Provide refresher training on program and financial management.        Closed
OH      15. Recommended   Support seatbelt and booster seat legislation.                         Closed
        16. Recommended   Grants should include assurances and certifications.                   Closed
        17. Recommended   Liquidate unexpended fund balances.                                    Closed
        18. Recommended   Substantiate indirect cost rate.                                       Closed
WI      19. Recommended   Fill five vacancies.                                                   Closed
        20. Recommended   Upgrade policy and procedures manual and training.                     Closed
        21. Recommended   Document and manage employee training.                                 Open
        22. Recommended   Use grant funds for staff travel for training.                         Open
        23. Recommended   Liquidate unexpended fund balances.                                    Closed
        24. Recommended   Provide claims separation of duties and supervisory review.            Closed
        25. Recommended   Ensure qualification for 40 percent local benefit.                     Open




Exhibit C. NHTS A Region 5 Management Review Required Actions
and Recommendati ons to Stat es
                                                              17



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Kerry R. Barras                         Program Director

Ryan P. Sanders                         Senior Analyst

Maurice Toval                           Senior Auditor

Stuart I. Weibel                        Senior Auditor

Christina Lee                           Writer-Editor

Petra Swartzlander                      Senior Statistician

Fritz Swartzbaugh                       Associate Counsel




Exhibit D. Major Contributors To This Report
                                                                                                     18



           APPENDIX. AGENCY COMMENTS

                                                                      Memorandum
           U.S. Department of
           Transportation
           National Highway
           Traffic Safety
           Administration


Subject:    INFORMATION: Management Comments –                                   Date:   August 4, 2014
            Office of Inspector General (OIG) Draft Report on NHTSA’s
            Oversight of State Safety Grants

   From: David   J. Friedman
           Acting Administrator
    To:     Thomas E. Yatsco
            Assistant Inspector General for
            Surface Transportation Audits
            Office of the Secretary of Transportation

           The National Highway Traffic Safety Administration (NHTSA) maintains a strong and
           effective State grant oversight program as demonstrated by the OIG findings that (1)
           grantees fulfilled all Federal grant requirements; (2) there were zero significant lapses in
           regional oversight; and (3) each transaction reviewed by the OIG complied with funding
           parameters, was appropriately charged, and was supported by sufficient documentation.
           To accomplish these exemplary results, NHTSA:

               •   Implemented a strong, comprehensive grant oversight system. This included (1)
                   triennial reviews, (2) A-133 grant management compliance reviews, (3) focused
                   sampling of projects, (4) quarterly monitoring activities, (5) routine voucher
                   reviews, and (6) end-of-year reviews. Statements indicating that NHTSA does
                   not conduct risk assessments are inaccurate. Risk assessment is inherent in all of
                   these activities. While Region 5 had no high-risk grantees, NHTSA’s grant
                   oversight resulted in the identification of high-risk grantees in other NHTSA
                   regions. These grantees are subject to extensive specialized oversight measures,
                   including 100 percent approval of all expenditures.
               •   Focused processes to ensure effective use of funds. The Federal budget process
                   has complicated State highway safety planning and required States to manage
                   their grant funds around the often unpredictable nature of Federal funds
                   distribution. States’ internal processes, such as re-appropriation of Federal funds
                   into State budgets and competitive contracting processes, also impacted States’
                   use of grant funds. As part of NHTSA’s processes to provide technical assistance
                   to States, regional offices work closely with States to not only encourage
                   expedient use of funds, but also link State planning to projects that effectively use
                   funds to meet highway safety goals.


           Appendix. Agency Comments
                                                                                        19


   •   Amended regulation to encourage States to expend grant funds promptly within
       the statutory period of availability. To encourage States to expend grant funds
       promptly, NHTSA amended its regulation to require States to not only obligate
       funds within the statutory four year period of availability, but also to expend the
       grant funds by the end of the succeeding fiscal year and to submit a final voucher
       within 90 days of that fiscal year. See 23 CFR 1200.41(b).

The NHTSA generally concurs with the recommendations. As noted, NHTSA has been
pursing improvements to address prompt expenditure of grant funds. Any approach must
necessarily take into account the four-year statutory window for State obligations, which
provides intentional flexibility for State spending under these grant programs. As a
result, with regard to the first recommendation, a discrete performance measure on the
rate of expenditure may not provide a central focus on the key elements of effective
implementation of this grant program within the statutory authority granted to the states.
As an alternative, NHTSA will evaluate its programmatic monitoring to determine
whether additional measures of effectiveness would benefit its oversight to better ensure
the timely and effective use of funds. With regard to the second recommendation,
NHTSA already assesses risks as part of its comprehensive oversight system and will
continue to update its monitoring policy to ensure its existing risk assessment approaches
are sufficiently explicit, including developing training on risk assessment. For the third
recommendation, procedural improvements to track findings and management
considerations as well as documenting actions taken to close out such findings are
already underway (e.g., a new interactive database with improved analytical tools, and
enhancements to electronic dataset for highway safety planning and annual reporting
processes). Regarding the final recommendation, we are finalizing the selection of a
software program for identifying and monitoring grant findings. We expect
recommendation 3 to be completed by December 31, 2014, and recommendation 4 to be
implemented by April 1, 2015.

We appreciate this opportunity to offer additional perspective on the OIG draft report.
Please contact Dr. Mary Gunnels at (202) 366-0166 if you have any questions or require
additional information about these comments.




Appendix. Agency Comments
